                                                             NATIONAL SCIENCE FOUNDATION
                                                              OFFICE OF INSPECTOR GENERAL
                                                                OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM
                                                                                                                \
       Case Number:AI0040026                                                                   Page 1 of 1




                     We reviewed an allegation of plagiarism in an NSF proposal. 1 We contacted the Subject2,
               who agreed to cite with more care in the future.

                      Detennining the amount of copied text to be de minimis, we sent the Subject a letter,
               reminding her of the importance of properly citing text within NSF proposals.

                         Accordingly, this case is closed.
.. 
                                                           ...




       NSF OIG Fonn 2 (11/02)
